                                                                   E-IN-DMO-0104-2002


            United States Department of the Interior
                             Office of Inspector General
                                   Washington, D.C. 20240
                                                                   March 21, 2003


Memorandum

To:        Assistant Secretary – Policy, Management and Budget


From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Independent Auditors’ Report on the Interior Franchise Fund’s Financial
           Statements for Fiscal Years 2002 and 2001 (Report No. 2003-I-0038)

        We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the Interior Franchise Fund’s (IFF) financial statements as of
September 30, 2002 and for the year then ended. The contract required that KPMG
conduct its audit in accordance with the Comptroller General of the United States of
America’s Government Auditing Standards, the Office of Management and Budget’s
Bulletin 01-02 Audit Requirements for Federal Financial Statements, and the General
Accounting Office/President’s Council on Integrity and Efficiency’s Financial Audit
Manual.

         In its audit report dated January 17, 2003 (Attachment), KPMG disclaimed an
opinion on IFF’s fiscal year 2002 financial statements because the accounting records
were not maintained during fiscal year 2002, particularly with respect to the balances for
accounts receivable and advances from others. KPMG expressed an unqualified opinion
on IFF’s fiscal year 2001 financial statements. KPMG identified seven reportable
conditions related to internal controls and financial operations: (1) revenue process, (2)
reconciliation of transactions with trading partners, (3) organizational structure, (4)
application and general controls over financial management systems, (5) timeliness of
recording transactions, (6) reconciliation of Fund Balance with Treasury, (7)
investigation and resolution of old and negative account balances. KPMG considered the
first three reportable conditions to be material weaknesses. With regard to compliance
with laws and regulations, KPMG found IFF noncompliant with portions of the Federal
Financial Management Improvement Act of 1996 (FFMIA). Specifically, KPMG
reported IFF’s financial management systems did not substantially comply with federal
financial management systems requirements and federal accounting standards. In regard
to compliance with laws and regulations exclusive of those referred to in the FFMIA,
KPMG found IFF to be noncompliant with Section 113 of Public Law 104-208 regarding
advances for the Interior Franchise Fund.

        In connection with the contract, we monitored the progress of the audit at key
points, reviewed KPMG’s report and selected related working papers, and inquired of its
representatives. Our review, as differentiated from an audit in accordance with the
Government Audit Standards, was not intended to enable us to express, and we do not
express, an opinion on IFF’s financial statements, conclusions about the effectiveness of
internal controls, conclusions on whether IFF’s financial management systems
substantially complied with the three requirements of FFMIA, or conclusions on
compliance with laws and regulations. KPMG is responsible for the auditors’ report and
for the conclusions expressed in the report. However, our review disclosed no instances
where KPMG did not comply in all material respects with the Government Auditing
Standards.

        The IFF’s management concurred with all of the recommendations except for the
recommendation related to finding “H. Section 113 of Public Law 104-208 – Advances
for the Interior Franchise Fund”. The IFF proposed an alternative solution which if
implemented should resolve the issue. Based on management’s response, we consider all
the recommendations resolved but not implemented. The recommendations will be
referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation.

      Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.




Attachment
                                                                                AA Attachment



                  2001 M Street, NW
                  Washington, DC 20036




                                              INDEPENDENT AUDITORS’ REPORT



Executive Board of the Interior Franchise Fund and
Inspector General
U.S. Department of the Interior:

We were engaged to audit the accompanying balance sheet of the Interior Franchise Fund as of September
30, 2002, and the related accompanying statements of net cost, changes in net position, budgetary
resources, and financing for the year then ended. Further, we have audited the accompanying balance sheet
of the Interior Franchise Fund as of September 30, 2001, and the related accompanying statement of net
cost for the year then ended. (hereinafter referred to as financial statements). In connection with our
engagement, we also considered the Interior Franchise Fund’s internal control over financial reporting and
tested the Interior Franchise Fund’s compliance with certain provisions of applicable laws and regulations
that could have a direct and material effect on its financial statements.

SUMMARY

As stated in our report on the financial statements, the scope of our work was not sufficient to express an
opinion on the financial statements as of and for the year ended September 30, 2002. Also as stated in our
report on the financial statements, we concluded that the accompanying balance sheet of the Interior
Franchise Fund as of September 30, 2001 and the related accompanying statement of net cost for the year
then ended, are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States of America.

The Interior Franchise Fund prepared the accompanying financial statements assuming that the Interior
Franchise Fund will continue as a going concern. As discussed in Note 1 to the financial statements, the
expiration of the Interior Franchise Fund’s authorizing legislation on October 1, 2003 creates an
uncertainty about the Interior Franchise Fund’s ability to continue as a going concern. Management’s plans
in regard to this matter are also described in Note 1. The financial statements do not include any
adjustments that might result from the outcome of this uncertainty.

As discussed in Note 7 to the financial statements, the Interior Franchise Fund discontinued certain
products and services and the remainder of the Interior Franchise Fund operations transferred from
Departmental Offices to Minerals Management Service within the Department of the Interior, as of
October 1, 2003.

Our consideration of internal control over financial reporting resulted in the following conditions being
identified as reportable conditions:




                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                 a member of KPMG International, a Swiss association.
Reportable Conditions That Are Considered to be Material Weaknesses

A. Controls over the Revenue Process

B. Controls to Reconcile Transactions with Trading Partners

C. Organizational Structure

Other Reportable Conditions

D. Application and General Controls Over Financial Management Systems

E. Timeliness of Recording Transactions

F. Controls to Reconcile Fund Balance with Treasury

G. Investigate and Resolve Old and Negative Account Balances

The results of our tests of compliance with certain provisions of laws and regulations disclosed the
following instances of noncompliance that are required to be reported herein under Government Auditing
Standards, issued by the Comptroller General of the United States, or Office of Management and Budget
(OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements:

H. Section 113 of Public Law 104-208 – Advances for Interior Franchise Fund

I.   Federal Financial Management Improvement Act of 1996 (FFMIA)

The following sections discuss our report on the Interior Franchise Fund’s financial statements, our
consideration of the Interior Franchise Fund’s internal control over financial reporting, our tests of the
Interior Franchise Fund’s compliance with certain provisions of applicable laws and regulations, and
management’s and our responsibilities.

REPORT ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheet of the Interior Franchise Fund as of September 30,
2001, and the related accompanying statement of net cost for the year then ended. Further, we were
engaged to audit the accompanying balance sheet of the Interior Franchise Fund as of September 30,
2002, and the related accompanying statements of net cost, changes in net position, budgetary resources,
and financing for the year then ended. These financial statements are the responsibility of the Interior
Franchise Fund’s management. Our responsibility is to express an opinion on the 2001 financial
statements based on the results of our audit.

The Interior Franchise Fund did not maintain its accounting records during fiscal year 2002, particularly
with respect to accounts receivable and advances from others, thus requiring reconciliation and
adjustment of these accounts subsequent to year end. As a result, management was unable to provide
timely evidential matter to support accounts receivable and advances and deferred revenue prior to the
end of our audit. It was impracticable to extend our procedures sufficiently to determine the extent to
which the financial statements as of and for the year ended September 30, 2002, may have been affected
by these conditions.




                                                    2
Because of the matters discussed in the preceding paragraph, the scope of our work was not sufficient to
enable us to express, and we do not express, an opinion on the accompanying financial statements as of
and for the year ended September 30, 2002.

In our opinion, the balance sheet of the Interior Franchise Fund as of September 30, 2001 and the related
accompanying statement of net cost for the year then ended, present fairly, in all material respects, the
financial position of the Interior Franchise Fund as of September 30, 2001, and its net costs for the year
then ended, in conformity with accounting principles generally accepted in the United States of America.

The Interior Franchise Fund prepared the accompanying financial statements assuming that the Interior
Franchise Fund will continue as a going concern. As discussed in Note 1 to the financial statements, the
expiration of the Interior Franchise Fund’s authorizing legislation on October 1, 2003 creates an
uncertainty about the Interior Franchise Fund’s ability to continue as a going concern. Management’s
plans in regard to this matter are also described in Note 1. The financial statements do not include any
adjustments that might result from the outcome of this uncertainty.

As discussed in Note 7 to the financial statements, the Interior Franchise Fund discontinued certain
products and services and the remainder of the Interior Franchise Fund operations transferred from
Departmental Offices to Minerals Management Service within the Department of the Interior, as of
October 1, 2003.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections are not a required part of the financial statements, but are supplementary information required by
accounting principles generally accepted in the United States of America. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.


INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters coming to
our attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect the Interior Franchise Fund’s ability to
record, process, summarize, and report financial data consistent with the assertions by management in the
financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.

In our fiscal year 2002 engagement, we noted certain matters involving internal control over financial
reporting and its operation that we consider to be reportable conditions. We believe that reportable
conditions A through C are material weaknesses.




                                                     3
A. Controls Over the Revenue Process

   The Interior Franchise Fund needs to improve controls over the recording of transactions related to
   the revenue process. Specifically, during the year-end closing process, we noted that the balances for
   accounts receivable and advances and deferred revenue (advances) changed frequently and ranged
   from $3 million to $160 million and $403 million to $494 million, respectively. We also noted the
   following:

   1. Customer Level Adjustments – During the year-end closing process the Interior Franchise Fund
      analyzed balances at the customer level and recorded an adjustment to improperly reduce
      accounts receivable and advances from others by $54 million. In addition, we determined that the
      year-end accounts receivable sub-ledger included one account totaling $6.5 million that related to
      several customer agreements.

   2. Customer Agreements with both Accounts Receivable and Advances – We compared the year-
      end accounts receivable and advances sub-ledgers and noted over 300 customer agreements with
      both an accounts receivable ($11 million) and an advances from others balance ($19 million).
      This occurred because the Interior Franchise Fund did not consider accounts receivable and
      advance balances as of September 30, 2001 when recording manual entries in the current year and
      because the accounting system did not properly consider the advance or accounts receivable
      balance as of September 30, 2001 when posting automated entries to the current year.

   3. Incorrect Balances – We tested a sample of 103 accounts receivable balances and identified 23
      balances with exceptions and we tested a sample of 152 advance balances and identified 6
      balances with exceptions. These exceptions related to the Interior Franchise Fund increasing
      receivables instead of reducing advances as well as recording the incorrect amount of the Interior
      Franchise Fund fees, funds collected, agreement amounts, and revenue earned. We also noted
      that the Interior Franchise Fund fees are not consistently recorded in the proper period and that
      the Interior Franchise Fund fees are not consistently documented in the customer agreements.

   As a result, the Interior Franchise Fund analyzed these accounts and adjusted the balances.

   Recommendations
   The Interior Franchise Fund should improve controls over the recording of transactions related to the
   revenue process as follows:

   1. Customer Level Adjustments – We recommend that the Interior Franchise Fund record
      transactions at the agreement level instead of the customer level to ensure that receivables and
      advances are properly recorded on the financial statements.

   2. Customer Agreements with both Accounts Receivable and Advances – We recommend that the
      Interior Franchise Fund configure the accounting system to properly reduce advances instead of
      recording accounts receivable. In addition, the Interior Franchise Fund should investigate and
      resolve agreements with both accounts receivable and advance balances as part of the month-end
      closing process.

   3. Incorrect Balances – We recommend that the Interior Franchise Fund establish procedures and
      controls to ensure transactions are recorded in the accounting system at the proper amount and in
      the proper period. We also recommend that the Interior Franchise Fund consistently document the
      agreed-upon Interior Franchise Fund fee in its customer agreements.



                                                   4
   Management Response
   Management concurs with the recommendations. The Interior Franchise Fund is enhancing the
   accounting system to ensure that agreements are fully tracked at that level. The processing will
   automatically liquidate outstanding advance balances before converting to an accounts receivable.
   Procedures and controls are being developed ensure that transactions are recorded in the accounting
   system at the proper amount and in the proper period. The Interior Franchise Fund will establish a
   consistent agreed-upon service charge (fee) for its customer agreements.

B. Controls to Reconcile Transactions with Trading Partners

   The Interior Franchise Fund needs to improve controls to reconcile the intra-departmental and non-
   fiduciary intra-governmental activity and balances as follows:

   1. Intra-Departmental Transactions – The Interior Franchise Fund purchased products and services
      from other components of the Department of the Interior. The Interior Franchise Fund did not
      reconcile transactions and balances with other components of the Department of the Interior in
      accordance with the Department of the Interior’s Fiscal Year 2002 Financial Statement
      Preparation Guidance, OMB Bulletin No. 01-09, Form and Content of Agency Financial
      Statements, and Treasury’s Federal Intragovernmental Transactions Accounting and Policies
      Guide in a timely manner. This occurred because the reconciliations are performed manually and
      the Interior Franchise Fund does not have the necessary resources focused on the reconciliation
      process.

   2. Reconciliation of Non-Fiduciary Intra-governmental Transactions – The Interior Franchise Fund
      provides products and services to other Federal entities. The Department of the Interior
      reconciles the fiduciary intra-governmental transactions and balances; however, the Department
      of the Interior has not fully reconciled its non-fiduciary intra-governmental transactions and
      balances. As a result, the Interior Franchise Fund does not fully reconcile its non-fiduciary
      transactions with other Federal entities. In addition, the Interior Franchise Fund did not designate
      the proper trading partner for Department of Defense transactions. Specifically, the Interior
      Franchise Fund coded certain Department of Defense transactions as Office of the Secretary of
      the Department of Defense instead of the individual components of the Department of Defense
      (i.e., Army, Navy, Air Force, and Office of the Secretary). Therefore, the Interior Franchise
      Fund’s transactions and balances with other federal entities may not properly eliminate on the
      government-wide financial statements.

   Recommendations
   We recommend that the Interior Franchise Fund improve the process to identify and reconcile the
   intra-departmental and non-fiduciary intra-governmental activity and balances as follows:

   1. Intra-Departmental Transactions – We understand that the Department of the Interior is
      developing an automated process to facilitate the reconciliation of intra-Departmental
      transactions. We recommend that the Department of the Interior complete and implement this
      automated process. Until the automated process is implemented, we recommend that the Interior
      Franchise Fund improve the manual process to reconcile transactions and balances with the other
      components of the Department of the Interior.




                                                   5
   2. Reconciliation of Non-Fiduciary Intra-governmental Transactions – We recommend that the
      Interior Franchise Fund in conjunction with the Department of the Interior establish procedures to
      reconcile non-fiduciary transactions and balances with other federal entities. We also recommend
      that the Interior Franchise Fund code intra-governmental transactions and balances to the
      appropriate trading partners.

   These reconciliation processes should be completed quarterly and should include procedures to
   resolve any identified differences in a timely manner.

   Management Response
   Management agrees that it must reconcile its trading partner balances and resolve differences no less
   frequently than quarterly. Resources will be added as necessary and, where possible, the use of
   automated tools will be explored to mitigate the need for additional resources prior to release of the
   Department’s automated reconciliation process.

C. Organizational Structure

   The Interior Franchise Fund is a “virtual organization” that utilizes personnel from both of its service
   providers. Although several personnel are fully dedicated to working on the Interior Franchise Fund
   activity, there are several personnel who only spend part of their time working on the Interior
   Franchise Fund activity. As a result of utilizing personnel from different service organizations, the
   Interior Franchise Fund does not have clear lines of responsibility or reporting and delays in
   processing result.

   Recommendation
   We understand that the Interior Franchise Fund is in the process of re-organizing responsibilities
   within its service providers. We recommend that the Interior Franchise Fund complete this re-
   organization process and ensure there is appropriate staffing to complete the day-to-day accounting
   processing in a timely manner.

   Management Response
   Effective October 1, 2002, the GovWorks operation of the Minerals Management Service is the sole
   service provider to the Interior Franchise Fund. Thus, management and accounting for the fund will
   reside in one organization, eliminating the “virtual organization.”        Additionally, staff is being
   recruited and trained to ensure that daily processing is completed timely and accurately.

D. Application and General Controls Over Financial Management Systems

   The Interior Franchise Fund needs to improve the information technology controls that protect its
   financial information systems. Specifically, we noted the following:

   1. National Business Center - The Interior National Business Center (NBC) administers the Interior
      Franchise Fund financial management systems, including the Federal Financial System and
      Hyperion. Although NBC has improved the security and controls over these information
      systems, NBC needs to continue improvements in the areas of entity-wide security planning;
      configuration of the operating systems; system software controls; software development and
      change controls; and service continuity. Weaknesses in these control areas could affect the
      Interior Franchise Fund’s ability to prevent and detect unauthorized changes to its financial
      information and increases the need for less efficient manual controls to monitor financial
      information.


                                                    6
   2. Access Controls – The Interior Franchise Fund does not have policies over granting users access
      to Federal Financial System and Hyperion. In addition, the security officer for the Interior
      Franchise Fund is not consistently informed of employee terminations or transfers. Furthermore,
      the Interior Franchise Fund does not consistently monitor user access listings to ensure that access
      granted to users is appropriate considering the users’ responsibilities.

   Recommendations
   We recommend that the Interior Franchise Fund improve the information technology controls that
   protect its financial information systems as follows:

   1. National Business Center – We understand the Interior Franchise Fund is undergoing a re-
      organization that will replace Federal Financial System but not Hyperion. As the Interior
      Franchise Fund plans to continue using Hyperion, which is supported by the NBC, we
      recommend that the Interior Franchise Fund annually obtain assurance similar to a SAS 70 type II
      report from NBC that adequate security and controls are in place over the financial management
      systems.

   2. Access Controls – We recommend that the Interior Franchise Fund establish policies for granting
      users access to Federal Financial System and Hyperion as well as informing the security officer
      of user terminations or transfers. We also recommend that the Interior Franchise Fund monitor
      user access listings on a monthly basis to ensure that access granted to users is appropriate
      considering the users responsibilities. The Interior Franchise Fund should investigate and resolve
      any unauthorized access in a timely manner.

   Management Response
   Management concurs.

E. Timeliness of Recording Transactions

   The Interior Franchise Fund does not consistently record transactions in a timely manner. For
   example, the June 30, 2002 financial statements did not include approximately 80% of NBC-related
   activity and did not include most of the MMS-related revenue. This occurred because the Interior
   Franchise Fund did not record NBC-related expenses until the expenses were matched with a
   customer agreement and because the Interior Franchise Fund did not start entering fiscal year 2002
   activity into the general ledger until after January 2002. In addition, the Interior Franchise Fund
   recorded numerous adjustments during the year-end closing process.

   Recommendation
   We recommend that the Interior Franchise Fund record transactions when the financial event occurs.

   Management Response
   Management concurs with the recommendation. Interior Franchise Fund has developed and
   published policies and will continue as necessary to develop procedures for recording transactions in
   a timely manner during the month and performing reconciliations on a monthly basis, including
   prompt follow-up on any differences identified. Development by Minerals Management Service of
   an electronic extract from ABACIS, which interfaces with the Interior Franchise Fund’s application
   in FFS, has significantly improved the timeliness of data entry but further work needs to be done for
   Minerals Management Service’s fees/retained earnings and National Business Center’s cost
   transactions.



                                                   7
F. Controls to Reconcile Fund Balance with Treasury

   The Interior Franchise Fund has not properly designed controls over fund balance with Treasury.
   Specifically we noted the following:

   1. Reconciliation Process – Generally, a Federal entity routinely records disbursement and
      collection transactions into the general ledger and prepares, on a monthly basis, the SF-224
      Statement of Transactions report. The Department of the Treasury (Treasury) compares the
      entity’s SF-224 report to the disbursement and collection transactions it has processed and issues
      various Treasury reports for reconciliation by the federal entity. However, the Interior Franchise
      Fund does not follow this reconciliation process. The Interior Franchise Fund uses Treasury’s
      CA$HLINK report to prepare the SF-224 report for submission to Treasury. After submission to
      Treasury, the Interior Franchise Fund enters disbursement and receipt activity into the general
      ledger and reconciles both the CA$HLINK report and the SF 224 report to the general ledger to
      ensure the activity was properly entered.

   2. Segregation of Duties – The Interior Franchise Fund’s fund balance with Treasury responsibilities
      are not properly segregated to prevent or detect potential errors. We noted that the Interior
      Franchise Fund representative responsible for performing the fund balance reconciliations may
      also process Intra-governmental Payment and Collection (IPAC) transactions and record fund
      balance transactions into the general ledger.

   Recommendations
   We recommend that the Interior Franchise Fund improve the controls over fund balance with
   Treasury as follows:

   1. Reconciliation Process – We recommend that the Interior Franchise Fund revise the fund balance
       with Treasury reconciliation procedures so that the fund balances transactions are recorded into
       the general ledger before they are reconciled with Treasury.

   2. Segregation of Duties – We recommend that the Interior Franchise Fund have separate
       individuals perform fund balance reconciliations, process IPAC transactions, and record the fund
       balance transactions into the general ledger.

   Management Response
   Management agrees that all fund balance transactions must be recorded in the general ledger in a
   timely manner prior to performing the monthly fund balance reconciliations. At this time, the Interior
   Franchise Fund is working to eliminate the current backlog of entering fund balance transactions into
   the general ledger prior to fiscal year-end, with the intention of performing the reconciliations, as
   recommended, beginning with the new fiscal year. The Interior Franchise Fund also agrees that the
   duties of fund balance reconciliation, IPAC, and recording should be segregated for purposes of better
   internal control.

G. Investigate and Resolve Old and Negative Account Balances

   The Interior Franchise Fund does not consistently review and resolve older accounts receivable and
   payable balances. Specifically, we identified several older accounts receivable and payable balances
   and several negative account balances. As a result, the Interior Franchise Fund investigated the older
   and negative accounts receivable and payable balances and adjusted the balances.




                                                   8
    Recommendation
    We recommend that the Interior Franchise Fund design formal system generated accounts receivable
    and payable aging reports and review these reports on a monthly basis. The Interior Franchise Fund
    should investigate and resolve any accounts receivable and payable balances that are negative or over
    6 months old.

    Management Response
    Management concurs. IFF will design formal system generated accounts receivable and payable
    aging reports and review these reports on a monthly basis, as well as investigate and resolve any
    accounts receivable and payable balances that are over 6 months old.

A summary of the status of prior year reportable conditions is included as Exhibit I.


COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of compliance with certain provisions of laws and regulations, as described in the
Responsibilities section of this report, exclusive of the FFMIA, disclosed an instance of noncompliance
with the following laws and regulations that is required to be reported under Government Auditing
Standards and OMB Bulletin No. 01-02, and is described below.

H. Section 113 of Public Law 104-208 – Advances for Interior Franchise Fund

    In accordance with section 113 of Public Law 104-208, the Interior Franchise Fund shall obtain
    advances from customers before costs are incurred to provide goods or services to the customer.
    However, we noted that the Interior Franchise Fund does not consistently obtain advances from
    customers as the Interior Franchise Fund reported accounts receivable of approximately $78 million
    as of September 30, 2002.

    Recommendation
    We recommend that the Interior Franchise Fund require customers to pay in advance in accordance
    with the law or consider requesting the U.S. Congress to change the law governing this requirement.

    Management Response
    As we responded last year, the Department of the Interior developed appropriation language
    supporting the Interior Franchise Fund under the Government Management Reform Act establishing
    the franchise fund pilot program following the Office of Management and Budget guidelines. The
    intent of the pilot program was to allow these pilot programs to provide quality services at reduced
    costs to Federal agencies through competition. The Interior Franchise Fund does not believe that the
    recommended appropriation language was intended to require advances for all services but was
    intended to allow the pilot program to receive advances so that the organizations could operate in a
    more business-like manner. However, the Interior Franchise Fund can see how the existing language
    could be interpreted as described above.

    The Interior Franchise Fund has provided language to the office of the Assistant Secretary – Policy,
    Management, and Budget that amends the FY 2003 appropriation wording to address this finding.
    The language essentially amends the original IFF appropriation language to provide for payment in
    advance or reimbursement after the fact. The Department of the Interior is presently working with the
    Office of Management and Budget and the U.S. Congress to adjust the appropriation language to
    support the intent of the stated Government Management Reform Act objectives.



                                                     9
I.   Federal Financial Management Improvement Act of 1996 (FFMIA)

     The results of our tests of FFMIA disclosed instances, described below, where the Interior Franchise
     Fund’s financial management systems did not substantially comply with the federal financial
     management systems requirements and the federal accounting standards. The results of our tests of
     FFMIA disclosed no instances in which the Interior Franchise Fund’s financial management systems
     did not substantially comply with the United States Standard General Ledger at the transaction level.

     1. Federal Financial Management Systems Requirements – As discussed in the section of our report
        entitled “Internal Control Over Financial Reporting,” the Interior Franchise Fund needs to work
        with NBC to improve its EDP security and general control environment and needs to strengthen
        access controls. Due to weaknesses in these areas, the Interior Franchise Fund does not
        substantially comply with the security and general EDP control requirements of OMB Circular A-
        130, Management of Federal Information Resources.

     2. Federal Accounting Standards – The Interior Franchise Fund is required to prepare its financial
        statements in accordance with federal accounting standards. As discussed in the section of our
        report entitled “Internal Control over Financial Reporting,” we identified material weaknesses
        that affect the Interior Franchise Fund’s ability to prepare its financial statements and related
        disclosures in accordance with federal accounting standards. Specifically, we determined that the
        Interior Franchise Fund needs to improve its controls over the revenue and trading partner
        reconciliation processes. In addition, the Interior Franchise Fund needs to improve its
        organizational structure.

     Recommendations
     1. Federal Financial Management Systems Requirements – We recommend that, in fiscal year 2003,
        the Interior Franchise Fund take the necessary actions to improve the application and general
        controls over its financial management systems in accordance with requirements set forth in
        OMB Circular A-130, Management of Federal Information Resources.

     2. Federal Accounting Standards - We recommend that, in fiscal year 2003, the Interior Franchise
        Fund strengthen its procedures and internal controls to ensure the financial statements and related
        disclosures are prepared in accordance with the federal accounting standards.

     Management Response
     Management concurs. See response to items A through D above.


RESPONSIBILITIES

Management’s Responsibilities

The Government Management Reform Act (GMRA) of 1994 requires each federal agency to report
annually to Congress on its financial status and any other information needed to fairly present its financial
position and results of operations. To meet the GMRA reporting requirements, the Interior Franchise
Fund prepares annual financial statements.




                                                     10
Management is responsible for:

•   Preparing the financial statements in conformity with accounting principles generally accepted in the
    United States of America;
•   Establishing and maintaining internal control over financial reporting, and preparation of the
    Management Discussion and Analysis (including the performance measures) and required
    supplementary information; and
•   Complying with laws and regulations, including FFMIA.

In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies. Because of inherent limitations in internal
control, misstatements, due to error or fraud may nevertheless occur and not be detected.

Auditors’ Responsibilities

Our responsibility is to express an opinion on the fiscal year 2001 financial statements of the Interior
Franchise Fund based on our audit. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America, the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States, and OMB
Bulletin No. 01-02. Those standards and OMB Bulletin No. 01-02 require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

An audit includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
    statements;
•   Assessing the accounting principles used and significant estimates made by management; and
•   Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion on the fiscal year 2001 financial
statements.

Because of the matters discussed above in our report on the financial statements, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on the accompanying
financial statements as of and for the year ended September 30, 2002. We considered the limitations on
the scope of our work in forming our conclusions.

In planning and performing our fiscal year 2002 engagement, we considered the Interior Franchise Fund’s
internal control over financial reporting by obtaining an understanding of its internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls in order to determine our procedures on the financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin No. 01-02 and
Government Auditing Standards. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our
engagement was not to provide assurance on internal control over financial reporting. Consequently, we
do not provide an opinion thereon.




                                                     11
As required by OMB Bulletin No. 01-02, with respect to internal control related to performance measures
determined by management to be key and reported in the Management Discussion and Analysis, we
obtained an understanding of the design of significant internal controls relating to the existence and
completeness assertions. Our procedures were not designed to provide assurance on internal control over
performance measures and, accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether the Interior Franchise Fund’s fiscal year 2002
financial statements are free of material misstatement, we performed tests of the Interior Franchise Fund’s
compliance with certain provisions of laws and regulations, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts, and certain provisions of
other laws and regulations specified in OMB Bulletin No. 01-02, including certain provisions referred to
in FFMIA. We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws and regulations applicable to the Interior Franchise Fund.
Providing an opinion on compliance with laws and regulations was not an objective of our engagement
and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the Interior Franchise
Fund’s financial management systems substantially comply with (1) federal financial management
systems requirements, (2) applicable federal accounting standards, and (3) the United States Government
Standard General Ledger at the transaction level. To meet this requirement, we performed tests of
compliance with FFMIA Section 803(a) requirements.

DISTRIBUTION

This report is intended for the information and use of Department of the Interior’s management,
Department of the Interior’s Office of the Inspector General, OMB and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




January 17, 2003




                                                    12
      Exhibit I


                                   Interior Franchise Fund
                           Summary of the Status of Prior Year Findings
                                      September 30, 2002


Ref                       Condition Area                                  Status

A        Establish Procedures and Controls to Record This condition has been corrected
         Obligations                                 and is not repeated in fiscal year
                                                     2002.

B        Re-Design the Process for Recording Minerals This condition has not been
         Management Service (MMS) Activity            corrected and is repeated in fiscal
                                                      year 2002. See finding A.

C        Improve Controls Over Accruals                     This condition has been corrected
                                                            and is not repeated in fiscal year
                                                            2002.

D        Improve Timeliness of Transaction Entry and This condition has not been
         Reconciliation                              corrected and is repeated in fiscal
                                                     year 2002. See finding E.

E        Improve Organizational Structure                   This condition has not been
                                                            corrected and is repeated in fiscal
                                                            year 2002. See finding C.

F        Improve Application and General Controls Over This condition has not been
         Financial Management Systems                  corrected and is repeated in fiscal
                                                       year 2002. See finding D.

G        Document Policies and Procedures for Certain This condition has been corrected
         Areas                                        and is not repeated in fiscal year
                                                      2002.

H        Review and Investigate Old and Negative Account This condition has not been
         Balances                                        corrected and is repeated in fiscal
                                                         year 2002. See finding G.




                                                13
                                                                              Exhibit I, Continued


                                Interior Franchise Fund
                        Summary of the Status of Prior Year Findings
                                   September 30, 2002



Ref                    Condition Area                                   Status

 I    Section 113 or Public Law 104-208 – Advances for This condition has not been
      Interior Franchise Fund                          corrected and is repeated in fiscal
                                                       year 2002. See finding H.

 J    Provide Adequate Application and General Controls This condition has not been
      Over Financial Management Systems                 corrected and is repeated in fiscal
                                                        year 2002. See finding I.

K     Federal Accounting Standards                        This condition has not been
                                                          corrected and is repeated in fiscal
                                                          year 2002. See finding I.




                                              14
